              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Resolution of Significant Finding
Investigation Recommendations




DOE/IG-0575                                 November 2002
                     U. S. DEPARTMENT OF ENERGY
                           Washington, DC 20585

                             November 18, 2002


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 Information: Audit Report on "Resolution of Significant
                         Finding Investigation Recommendations"


BACKGROUND

Since 1992, the Department of Energy (Department) and the National Nuclear Security
Administration (NNSA) have carried out an analytically-based Stockpile Surveillance Program to
help ensure the safety, reliability, and performance of the nuclear weapons in the Nation's
stockpile. On a continuing basis, NNSA randomly selects weapons from the active inventory for
disassembly, inspection, and testing for defects and problems. Test results serve, in part, as a
basis for certifying to the President that there is no need to resume underground nuclear testing.

When the surveillance program identifies a suspected problem, NNSA must determine if further
testing and analysis is warranted. If so, a Significant Finding Investigation (SFI) is opened.
Weapons experts at one of the Department's defense laboratories generally conduct the SFI and
are charged with determining the severity of the problem and whether further action is required.

The objective of this audit was to determine whether NNSA took action to resolve
recommendations that result from SFIs.

RESULTS OF AUDIT

While NNSA could account for the resolution of the 26 most serious SFI recommendations
related to problems affecting weapon safety, reliability, or performance, the status of 74
additional recommendations, each with a potential consequence for the surveillance program's
operations and processes, was not tracked. We found that no action had been taken on 23 of the
recommendations and that most were not assigned to any specific individual or organization for
follow-up. NNSA did not have controls in place to ensure that such assignments were made and
that follow-up actions were completed. In our view, the failure to routinely track and resolve
numerous SFI recommendations, admittedly those that may have been determined to be of a
lower risk and/or priority, has the potential to undermine the credibility of the Department's
testing regime.

As a result of discussions with responsible management officials during the verification phase of
the audit, we truncated the audit so that NNSA could devote attention to this matter.
Specifically, NNSA initiated action to develop a tracking system for all SFI recommendations,
and to modify its policy and procedures to better account for their resolution. With the
completion of these actions, the intent of our audit recommendations, as detailed on page 3, will
be satisfied.
                                             -2-


In our report on Management Challenges at the Department of Energy (DOE/OIG-0538,
December 2001), the Office of Inspector General noted that successful implementation of the
Stockpile Stewardship Program, of which the surveillance testing is a key component, is one
of the most daunting tasks the Department faces. We have also issued two recent reports on
other aspects of surveillance testing. Our report on Stockpile Surveillance Testing (DOE/OIG-
0528, October 2001), disclosed that NNSA had not met many of its flight, laboratory, and
component testing milestones. In Management of the Stockpile Surveillance Program's
Significant Finding Investigations (DOE/OIG-0535, December 2001), we noted that NNSA
was not meeting its timeframes for initiating and completing SFIs.

MANAGEMENT REACTION

NNSA agreed with the finding and recommendations, but did not provide a formal action plan
to address the recommendations.

Attachment

cc:    Chief of Staff
       Administrator, National Nuclear Security Administration
       Director, Policy and Internal Controls Management, NA-66
RESOLUTION OF SIGNIFICANT FINDING INVESTIGATION
RECOMMENDATIONS

TABLE OF
CONTENTS



                 Significant Finding Investigation Corrective Actions

                 Details of Finding ........................................................................1

                 Recommendations and Comments ............................................3


                 Appendices

                 Management Comments .............................................................4

                 Objective, Scope, and Methodology ...........................................5
SIGNIFICANT FINDING INVESTIGATION CORRECTIVE ACTIONS

Accounting for        The National Nuclear Security Administration (NNSA) has two broad
Significant Finding   categories into which recommendations arising from completed
Investigation         Significant Finding Investigations (SFIs) are segregated.
Recommendations       Recommendations that address a weapon system's safety, reliability, or
                      performance are considered more serious. These recommendations, of
                      which there were 26 in calendar years 2000 and 2001, generally involve
                      repairs or retrofits. Their resolution is monitored by the Nuclear
                      Weapons Council, a group consisting of representatives from the
                      Departments of Energy and Defense and the Joint Chiefs of Staff.
                      NNSA readily provided us with documentation as to the status of the
                      issues and corrective actions undertaken.

                      In contrast, our audit disclosed that NNSA could not readily account for
                      the resolution of 74 recommendations in the second category, dealing
                      with actions needed to improve weapon system operations and
                      processes. To determine the status of these recommendations, we met
                      with NNSA weapon program engineers assigned to each of the nine
                      weapons systems. Based on extensive discussions with these engineers,
                      and further research they conducted at our request, we determined that
                      NNSA had not taken action on 23 of the 74 recommendations, some of
                      which had been made more than 24 months prior to our audit.

                      For example, NNSA did not take action on a recommended leak check
                      of a weapon system's pit, or on a related records review. In this case, a
                      non-war reserve pit failed to meet leak check criteria while being
                      prepared for shipment. Although the SFI found no current impact to
                      safety, reliability, or performance, a recommendation was made that
                      similar weapon system pits be leak-tested during surveillance.
                      According to the SFI, without the leak check, the integrity of the pit
                      could not be conclusively determined. The SFI also recommended a
                      records check for 10 percent of the active stockpile of the weapon to
                      determine if any notations had been made reflecting similar problems.
                      When we informed management at NNSA that these matters had not
                      been addressed, they, and the cognizant laboratory, acknowledged that
                      the recommendations, initially made in June 2001, still needed to be
                      carried out.

                      In another instance, NNSA did not take action on a December 2001
                      recommendation to inspect certain weapon components for loose bolts
                      after a problem was noted during surveillance testing. Laboratory
                      officials decided not to address the recommendation because, in their




Page 1                                                                      Details of Finding
                          view, it would cause more harm than good to the component. However,
                          NNSA was not made aware of this decision until we requested the
                          status of the recommendation from an NNSA weapons program
                          engineer. The engineer was surprised that NNSA was not made aware
                          of the decision earlier.

                          We also noted that 30 of the 74 recommendations impacted one weapon
                          system. By definition, none of the 30 recommendations, considered
                          separately, is likely to have a significant impact on the weapon system.
                          However, it is not clear to us how NNSA can assess the cumulative
                          impact of the 30 issues identified unless the specific recommendations
                          are tracked to resolution.

Management Controls       Although NNSA developed and implemented a database in 2002 to
                          ensure that SFIs were performed, it did not have procedures in place to
                          ensure that all SFI recommendations were assigned and resolved. In
                          fact, we found that 64 recommendations had not been assigned to a
                          specific organization for action. For example, one SFI recommendation
                          was to incorporate value modifications into core surveillance.
                          However, no one was assigned responsibility to address this
                          recommendation and NNSA weapon program engineers could not
                          determine whether the recommendation was resolved. NNSA also did
                          not have policies or procedures that addressed how SFI
                          recommendations would be resolved. Finally, although NNSA had
                          overall performance goals for maintaining stockpile confidence, it had
                          not established performance measures to address the resolution of SFI
                          recommendations.

Tracking and Resolution   Without a tracking system to document the resolution of all SFI
                          recommendations, problems with the potential to affect weapons
                          operations and processes could go unresolved. In addition, NNSA may
                          not be able to evaluate the effectiveness of the various weapons systems
                          if adequate historical data on the resolution of SFI recommendations is
                          not kept. Given that the life of the nuclear weapons stockpile is
                          continually being extended, NNSA should, in our judgment, take all
                          reasonable precautions to ensure that potential problems are fully
                          accounted for and resolved.

                          We presented our preliminary findings to NNSA management in July
                          2002. At that time, NNSA officials acknowledged the importance of
                          accounting for the resolution of all SFI recommendations. Based on the
                          information we developed and presented to management, NNSA took
                          initial steps to 1) assign responsibility for the resolution of all SFI



Page 2                                                                         Detail of Finding
                   recommendations, 2) modify its Development and Production Manual
                   to include appropriate procedures for SFI recommendation follow-up,
                   and 3) develop a tracking system to account for all SFI
                   recommendations. If NNSA completes these actions, it will have met
                   the intent of the following recommendations.


RECOMMENDATIONS    We recommend that the Acting Administrator, NNSA:

                      1. Ensure that the Development and Production Manual and
                         related policies and procedures are modified to address the
                         resolution of all SFI recommendations;

                      2. Complete the development and implementation of a system to
                         formally document and track the resolution of SFI
                         recommendations;

                      3. Assign responsibility for resolution of all SFI recommendations,
                         including previously unresolved recommendations; and,

                      4. Establish performance measures to resolve SFI
                         recommendations as part of the overall performance goals on
                         maintaining stockpile confidence.


MANAGEMENT         Management concurred with the finding and corresponding
REACTION           recommendations and is working to correct the deficiencies noted.


AUDITOR COMMENTS   We appreciate management's commitment to correcting the deficiencies
                   and noted the initial actions NNSA is taking to resolve SFI
                   recommendations. However, NNSA did not provide a formal plan on
                   the actions already underway. We have included management's
                   comments in their entirety as Appendix 1.




Page 3                                             Recommendations and Comments
Appendix 1




Page 4       Management Comments
Appendix 2

OBJECTIVE     The objective of the audit was to determine whether NNSA took action
              to resolve recommendations that result from SFIs.


SCOPE         The audit was performed from March 2002 to August 2002 at the
              Albuquerque Operations Office and at Sandia National Laboratories in
              Albuquerque, NM. We also had discussions NNSA/Headquarters and
              Lawrence Livermore National Laboratory personnel.


METHODOLOGY   To accomplish the audit objective, we:

                 x Interviewed NNSA/Headquarters, Albuquerque Operations
                       Office, Lawrence Livermore National Laboratory, and Sandia
                       National Laboratories personnel;

                 x Reviewed all SFI reports issued during calendar years 2000 and
                       2001;

                 x Analyzed supporting documents for various recommendations;

                 x Evaluated policies, procedures, and other documents related to
                       Significant Finding Investigation recommendations;

                 x Determined the number of recommendations issued during
                       calendar years 2000 and 2001;

                 x Reviewed prior audit reports related to the audit objective; and,

                 x Examined NNSA's performance plan to determine whether
                       performance measures were established.

              We conducted the audit according to generally accepted Government
              auditing standards for performance audits and included tests of internal
              controls and compliance with laws and regulations to the extent
              necessary to satisfy the audit objective. Accordingly, we assessed
              internal controls with regard to NNSA Significant Finding Investigation
              recommendations. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may
              have existed at the time of our audit. We did not rely on information
              processed on automated data processing equipment to accomplish our
              audit objectives.

              NNSA waived the exit conference.

Page 5                                         Objective, Scope, and Methodology
                                                                              IG Report No.: DOE/IG-0575

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
